No.20-194

In the
SUPREME COURT OF THE UNITED STATES

FRANKLIN COX, Petitioner
v.
TEXAS WORKFORCE COMMISSION
AND LINCOLN TECHNICAL., Respondent
PROOF OF SERVICE
I, Franklin L. Cox
do swear or declare that on this date November 10.
2020 .as required by Supreme Court Rule 29 I have served the enclosed
PETITION FOR REHEARING on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by siting
an envelope containing the above documents in the United States mail
properly addressed to each of them and with first- class postage prepaid , or
deliver to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:
Matthew T. Kennedy P.O. Box 12548,Austin, Texas, 78711-2548
Telephone;^ 12) 463-8897 certified r/r# 7020 2450 0000 3962 1076.
Victor Navasca Corpuz, 500 N. Akard, Ste 2500, Dallas, Texas 75201
Telephone: (214) 520-2400 certified r/r # 7020 2450 0000 3962 1175
Office of the Clerk, Supreme Court of the United States , 1 1st NE
Washington, DC 20543-0001 Priority Mail E J 499 256 420 US
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

November 10. 2020.
Franklin L. Cox

L
RECEIVED
NOV 1 6 2020
COURTrajL

